                                                         NATIONAL SCIENCE FOUNDATION,
                                                          OFFICE OF NSPECTOR GENERAL
                                                            OFFICE OF INVESTIGATIONS

                                                 CLOSEO'CTT MEMORAND'CTM

     Case Number: A08040017
                                                                                    11           Page 1 of 1



                   A proactive review by IVSF OIG focusing on plagiarism in REUs identified alleged
           plagiarism within a proposal submitted by two subjects.' The case was opened for Administrative
           Investigation.

                    Analysis indicates that the allegedly plagiarized text was from the same institution as the
           Subjects and associated with the same institutional department where one of the Subjects is
           affiliated. Therefore, OIG concludes that the allegation of plagiarism is not substantiated.

                     Accordingly, this case is closed.




I'
 NSF OIG Form 2 (1 1/02)
